Supreme Court, U.S.
FILED

1

MAY 2 0 2021
OFFICE OF THE CLERK

NO.

IN THE
Supreme Court of the United States

Christopher Forman,
Petitioner
v.
Commonwealth of Pennsylvania,
Respondent

On Petition For Writ Of Certiorari
To The Pennsylvania Superior Court

PETITION FOR WRIT OF CERTIORARI

Christopher Forman
Pro se Petitioner
DOC No. NR 1850
SCI Mahanoy
301 Morea Road
Frackville, PA 17932

QUESTIONS PRESENTED

1. Did the Commonwealth of Pennsylvania defy the due
process clause of the Fourteenth amendment to the United
States Constitution by permitting a conviction and unlawful
sentence on an offense of conspiracy to commit burglary not
alleged in the Information?
2. Is the Pennsylvania Superior Court's departure from
acceptable and usual course of appellate review going to
continue to violate the due process clause where it
enlarged the burglary statute and applied it
retroactively to petitioner?
3. Should the mandatory minimum sentence imposed under
42 Pa.C.S.A. §9714 be vacated as the statute is
unconstitutional as currently drafted?

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3
4-8

STATEMENT OF THE CASE
REASONS FOR GRANTING THE PETITION

9-18
19

CONCLUSION

INDEX TO APPENDICES
APPENDIX A -Commonwealth v- Forman, 2020
Pa.Super.Unpub. LEXIS 3379, No. 3389 EDA 2019
(Pennsylvania Superior Court October 27,
Pages 1-5
2020)
APPENDIX B -Commonwealth v. Forman, Per Curiam ORDER of
the Pennsylvania Supreme Court declining
Page 1
discretionary review
APPENDIX C - Bills of Information, filed by former
Philadelphia District Attorney Seth Williams.
........................................................................... Pages 1 -4
APPENDIX D -January 13, 2020, 1925(a) Opinion and
Memorandum of Law submitted by the Honorable
Pages 1-13
Anne Marie B. Coyle

i

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

Commonwealth v. Forman, 2020 Pa.Super.Unpub. LEXIS 3379,
No. 3389 EDA 2019 (Pa. Super. October 27, 2020).................. 1
Cole v. State of Arkansas, 92 L.Ed.2d 644, 333 U.S. 196. 9
Boule v. Columbia, 84 C.Ct. 1697, 12 L.Ed.2d 894, 378 U.S.
12
347
Alleyne v. United States, 570 U.S. 99 (2013)

15

Commonwealth v. Wolfe, 106 A.3d 800 (Pa. Super. 2014).. 16
Commonwealth v. Hopkins, 117 A.3d 247 (Pa. 2015)

16

Commonwealth v. Newman, 99 A.3d 86 (Pa. Super. 2014)... 16
Commonwealth v. Valentine, 101 A.3d 801 (Pa. Super. 2014).
16
Commonwealth v. Fennell, 105 A.3d 13 (Pa. Super. 2014). 16
Almendarez-Torres v. United States, 532 U.S. 224 (1998).17
United States v. McDowell, 745 F.3d 115 (4th Cir. 2014).17
Shepard v. United States, 544 U.S. 13, 125<»S.Ct. 1254, 161
17
L.Ed.2d 205 (2005)
Harris v. United States, 536 U.S. 545 (2002)

18

CONSTITUTIONAL PROVISIONS
Fourteenth Amendment to the U.S. Constitution

Passim

STATUTES AND RULES
2

28 U.S.C. §1257
18 Pa.C.S.A. §3502

Passim

42 Pa.C.S.A. §9714

Passim

ii

‘f

OPINIONS BELOW

Petitioner respectfully prays that: a writ of
certiorari issue to review the judgment below.

The opinion of the highest state court/ the Superior
Court/ to review the merits appears at Appendix A to the
petition and is reported at Commonwealth v. Christopher
Forman/ 2020 Pa.Super.Unpub. LEXIS 3379, No. 3389 EDA 2019
(Pa. Super. October 27, 2020)p CP-51-CR-0006295-2014.

The April 13, 2021, per curiam order of the state's
Highest available court. The state's Supreme Court, appears
at Appendix B to the petition and is unreported.

The January 13, 2020, opinion of the trial court, the
Court of Common Pleas of Philadelphia County, appears at
Appendix D to the petition and is unreported.

1

*

JURISDICTION

The date on which the highest state court; decided
petitioner’s case was April 13, 2021. A copy of the
decision appears at Appendix D.

The jurisdiction of this Court is invoked under 28
U.S.C. §1257(a)-

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fourteenth Amendment to the United States
Constitution provides that "[n]o State shall . . . deprive
any person of life, liberty, or property, without due
process of law, nor deny to any person within its
jurisdiction the equal protection of the law."

18 Pa.C.S.A. §3502(a)(1)(ii). Pet. App. A •, pg. 1.

42 Pa.C.S.A. §9714. Pet. App. A •, pg. 3.

3

4

STATEMENT OF THE CASE

I. State Court Proceedings
A. Evidence Presented at Trial

Tried by a jury in the Court of Common Pleas of
Philadelphia before the Honorable Anne Marie B. Coyle,
Christopher Forman ("petitioner") was alleged to have
broken into the home of Eliezer Colon and Moraima Alicea on
February 10, 2014. [Pet. App. A •, 1]

The victims returned

home at approximately 7:15 pm with their two children when
they discovered, from their vehicle, that the upstairs
lights were on. Id.

Colon asked Alicea whether she forgot

to turn off the lights; when she said no, he assumed that
she was mistaken. Id.

The family exited their vehicle.

Alicea noted that she could not unlock the front door. Id.
Colon further noticed that blinds were partially
cracked. Id.

At that point, Colon "realized somebody was

inside the house," because the deadbolt could only be
physically latched from inside. Alert, Colon told his
family to get back into the car. Once inside the vehicle,
Alicea called 911 to report a burglary. Id.

Colon drove

his family to the rear of the house by route of the common
alley way behind the homes on their street. Id.

He spotted

a truck idling by the back door and alleged that petitioner
and another male were attempting to depart with a several
hundred pound gun-safe. Id.

Upon seeing the vehicle coming

4

down the alley way, petitioner and an unidentified male
fled. Petitioner allegedly sucessfully fled the scene via
the truck, while the other man left the scene on foot. Id.
with the family still in the vehicle, Colon pursued
petitioner down Roosevelt Boulevard at high rates of
speed. Petitioner eventually lost control of the truck and
crashed into a tree. Id.

After the crash, petitioner

attempted to flee on foot, but colon pursued him, wrestled
him to the ground and made a "citizens arrest" until law
enforcement arrived and made a formal seizure of
petitioner’s liberty. Id.
Petitioner was convicted of burglary, criminal
trespass, criminal conspiracy to commit burglary, and two
counts of recklessly endangering another person. Id.
Sentencing for the aforementioned convictions was
deferred until the outcome of pre-sentence
investigation. [Pet. App. A

• t

2]

Prior to sentencing, the

Commonwealth notified petitioner that it was pursing a
mandatory minimum sentence pursuant to Pennsyvvania’s •
"second strike" law codified at 42 Pa.C.S.A. §9714, which
was in regards to a second or subsequent crime of violence
conviction. Petitioner stipulated that he was previously
convicted of a crime of violence. Id.

But challenged

whether the instant burglary conviction, in the first
degree, qualified as a "crime of violence" under §9714.
Through counsel, petitioner argued that because the'
evidence at trial exhibited beyond a reasonable doubt that
5

the victims were not present during the burglary the
burglary conviction does not and could not constitute a
"crime of violence" on its face. Id.

The sentencing court

disagreed and imposed the manadatory 10 to 20 year sentence
for the burglary conviction, noting that "those people came
home. It was their house, and when they tried to enter,
they were stopped because of you and your cohorts

***

this

matter does qualify under the statute... based upon the
facts that this court heard with respect to the victims
attempted entry into their own home." Id.
For the latter of the convictions arising from the
burglary, petitioner received 3^ years to 20 years for
conspiracy to commit burglary, consecutive to the judgement
on the burglary count; the sentence for the criminal
trespass merged with the judgement for burglary; hereceived a 1 to 2 years sentence for each recklessly
endangering another person count(s) ran consecutive to the
burglary offense and to the former counts. Total judgement
of sentence of total incarceration in this matter is not
less than 15^ years to not more 44 years.
Petitioner timely appealed.

8. State Appellate Proceedings

On April 24, 2017, petitioner filed a Motion Seeking
Reconsideration and Reduction of the sentence imposed on
April 17, 2017. That motion was denied by operation of law
6

without an opinion or memorandum until November 19, 2019,
and after requested by petitioner.
On November 23, 2019, a timely notice of appeal was
filed on petitioner's behalf. On December 6, 2019,
petitioner submitted a timely 1925(b) statement. On January
13, 2020, the trial court submitted it's 1925(a) statement
and memorandum of law.
The Superior Court heard the petitioner's appeal
docketed at No. 3389 EDA 2019. J?)e]t. App. A.
Petitioner requested the following grounds be
addressed by the Superior court:
"i. Was the defendant/appeliafct illegally sentenced
pursuant to 42 PA.C.S.A. §9714 insofar as the
Commonwealth did not sufficiently establish that
defendant committed a crime of violence with respect
to the charge of burglary in the matter sub judice as
no person was present in the residence at the time
of any alleged burglary?
ii. Should the mandatory minimum sentence imposed by the
trial court under 42 PA.C.S.A. §9714 be vacated, and
this matter remanded for a new sentencing hearing,
due to the fact that §9714 is unconstitutional as
currently drafted insofar as it violates defendant's
rights under the Fifth, and/or Sixth Amendment to the
U.S. Constitution (made applicable in this matter
by the Fourteenth Amendment to the U.S. Constitution)
and Article I, §9 of the Pennsylvania Constitution?"
The Superior Court, on October 27, 2020, denied
petitioner relief on all grounds and affirmed the
judgements imposed on April 17, 2017. Pet. App. A.

7

Petitioner sought review of the state’s Supreme Court
via Petition for Allowance of Appeal, and asked the state's
high court to answer the following questions:

”i. Did the Superior Court panel err, and enter a ruling
that conflicts with a holding of this court, and/or
another holding of the Superior Court, when it held
that defendant/appellant was not illegally sentenced
pursuant to 42 PA.C.S.A. §9714 where the Commonwealth
did not sufficiently establish that defendant committed
a crime of violence with respect to the charge of
burglary in the matter sub judice as no person was
present in the residence at the time of a burglary?
ii. Did the Superior Court panel err, when it held
that the mandatory minimum sentence imposed by the
trial court pursuant to 42 PA.C.S.A- §9714 is a
legal sentence where §9714 is unconstitutional as
currently drafted?"

By Per Curiam order dated April 13, 2021, the Supreme
Court declined to provide the lower court's with guidance
on the above areas of law when it had the ripest
opportunity to do so. Pet. App. B.
This timely request for Certiorari follows.

8

REASONS FOR GRANTING THE PETITION

I. The Fourteenth Amendment to the United States Constitution
requires setting aside petitioner's conviction and
sentence for conspiracy to commit burglary where it was
not alleged in the Information.

The District Attorney of Philadelphia filed an
Information alleging conduct that violated seventeen (17)
criminal statutes. Pet. App. C.
The only two conspiracy counts alleged in the
Information are at counts four (4) and eleven (11), and
both attach to the inchoate offenses of Assault and
Robbery. Pet. App. C, pgs. .1, 2.
This- -Court—has—held—in-Gole—v-.—State-of—Arkansas, ii_T-o
sustain a conviction on grounds not charged in the
information and which the jury had no opportunity to pass
upon, deprives the defendants of a fair trial and a trial
by jury, and denies the defendants that due process of law
guaranteed by the Fourteenth Amendment to the United States
Constitution." 92 L.Ed.2d 644, 647, 333 U.S. 196, 200.
Furthermore, the Cole court elaborated, "it is as much
a violation of due process to send an accused to prison
following a conviction of a charge on which he was never
tried as it would be to convict him upon a charge that was
never made." 92 L.Ed. at 647-649, 333 U.S. at
201. (internal page numbers and citations omitted).

9

The latter scenario is ever present here. Petitioner’s
conviction and judgment of sentence for criminal conspiracy
to commit the offense of burglary was obtained outside the
breadth of the Fourteenth Amendment, thus departing from
the accepted and usual course of judicial proceedings as to
call for an exercise of Certiorari. Respectfully.

10

II- The Pennsylvania Superior Court's rationale sustaining
petitioner's burglary>conviction is flawed and deviates
from Bouie v. Columbia.

The provision of 18 Pa.C.S.A. §3502 that petitioner
was found guilty of reads:

"(a) A person commits the offense of burglary if, with
the intent to commit a crime therein, the person:
(l)(ii) enters a building or occupied structure, or
separately secured or occupied portion thereof that is
adapted for overnight accommodations in which at the
time of the offense any person is present."

Pet- App. A., pg. 2

The Superior Court completely disregarded the
deliberate placement of the words "in which," and instead
opined that the portion reading "at the time of the offense
any person is present," is so indefinite as to include when
any person is "in the vicinity" of the building or occupied
structure, or separately secured or occupied portion
thereof at the time of the offense. Pet- App. A, pg. 3.
Thus, in the view of the Superior Court, so long as
any person is in the vicinity of the burglary in progress
they are "present" for purposes of satisfying the "in which
11

any person is present" proviso. Id.
In the case sub judice, we have a Pennsylvania statute
that expresses with definitiveness the conduct it seeks to
forbid, i.e •

/

entering a building or occupied structure

with the intent to commit a crime therein and at the time
that criminal conduct is occurring any person is present in
that structure. Pet. App. A., pg. 2.
The evidence adduced by the state reflects without a
doubt that the victims of the burglary did not enter their
residence? there was no porch nor occupied portion of the
residence they entered during the burglary; and when they
encountered petitioner fleeing from the rear of the home
the victims were in a vehicle in the common alley way.
[Pet. App. A., pg.l]

The Superior Court knew it was

constrained to vacate the judgement of sentence and reverse
the verdict on the burglary count. But they did not.
Instead, the Superior Court decided to sustain the
conviction by the very act of broadening with retroactive
affect a definitive state criminal statute. Such an action
was contemplated then forbidden by Bouie v. Columbia, 84
S.Ct. 1697, 12 L. Ed .2d 894, 378 U.S. 347.Under the Forman court's enlarged burglary statute,
alleged burglars can now be tried for the more serious
first degree felony provision of §3502 if the resident(s)
of the structure were down the street witnessing the
defendant in the house through a picture window; or if they
were a thousand miles away watching the burglar on an
12

in-home security system; or if the resident is re-shingling
his/her roof and the burglar is in the basement
thieving. This is because the "in which at the time of the
offense any person is present" portion is now superfluous
under Forman. Pet. App. A., pg. 3.
Here's one factual scenario the Forman court's
enlarged interpretation will not encompass: as the burglar
is in an occupied residence thieving, the postman walks
upon the porch and places a parcel in the mailbox. Under
this new enlarged provision, the defendant was in the
structure in which at the time of the offense the postman
was present.
The Superior Court effectively rendered the entire "in
which at the time of the offense any person is present"
statement meaningless. This type of appellate action was
expressly stricken down by Bouie, in which it was,
expressed: "If this view is valid in the case of a judicial
construction which adds a clarifying gloss to a vague
statue, making it narrower or more definite than its
language indicates, it must be fortiori so where the
construction unexpectedly broadens a statute which on its
face has been definite and precise." 378 U.S. at 353
(internal quotations omitted).
•The-crux—of—the—Forman-court—rat-ion-a-l-e relies-heavily—

upon a pre-§3502 "sentencing interpretation" regarding the
"likelihood of greater mischief," upon a resident
"returning home and finding the sanctity and security of
13

the residence violated." [Pet. App. A., pg. 3]

Aside from

the obvious concerns where it requires presence of a
criminal intent component in order to aggravate a crime
under a penal statute (not a sentencing statute), these
references in the rationale are misplaced and frankly
irrelevant. Put another way, the statutory prerequisites of
§3502 are definitive. Any attempt to broaden the scope
thereof for the purposes of sustaining a conviction is at
odds with Bouie, thus wholly detracts from due process of
law guaranteed to petitioner and all alleged criminal
defendants charged with burglary under §3502.
For this reason, Certiorari is required.

V •:

1 "

14‘

III. The Court should revisit Almendarez-Torres as its
underpinnings have been eroded by constitutional
law, yet permits continued application of
Pennsylvania’s unconstitutional mandatory minimum
sentence at 42 Pa.C.S.A. §9714 upon petitioner.

On Appeal in the State's Superior Court, petitioner
submitted that the mandatory minimum sentence imposed
pursuant to §9714 is illegal because that statute defies
the constitution as currently drafted. [Pet. App. A *, pgs.
2-4]

Although the panel of the Superior Court held that

§9714 falls within a narrow exception to the rule announced
in Alleyne v. United States, 570 U.S. 99 (2013), that
exception is based on reasoning which is no longer sound
due to developments in the law. Petitioner submitted this
very argument to the Superior Court based upon subsequent
developments that call for change in existing law. Change
that would bring existing law up-to-date with sound
j urisprudence.
In this matter, the crime of burglary under
§3502(a)(l) carries a mandatory minimum sentence of 10
years of imprisonment under Pennsylvania's "three strikes"
statute

§9714. The version of that statute in effect at

the time of petitioner's sentencing hearing provided, in
pertinent part:
Sentences for second and subsequent offenses,
(b) Mandatory Sentences.(1) Any person who is convicted in any court of
this Commonwealth of a crime of violence shall,
if at the time of the commission of the current
offense the person had previously been
convicted of a crime of violence, be sentenced
to a total minimum sentence of at least ten
15
\

years of total confinement/ [...]
(g) Definition.—As used in this section, the
term "crime of violence" means [...] burglary
as defined in 18 Pa.C.S. §3502(a)(1)[...][. ]

42 Pa.C.S.A. § 9714(b)(1), (g).

With respect to the procedural prerequisites to the
imposition of a mandatory "second strike" sentence, §9714
provides, in relevant part:
Sentences for second and subsequent offenses,
(d) Proof at sentencing. — Provisions of this
section shall not be an element of the crime
and notice thereof to the defendant shall not
be required prior to conviction, [...]. The
applicability of this section shall be
determined at sentencing. [...]• The court
shall then determine, by a preponderance of the
evidence, the previous convictions of the
offense and, if this section is applicable,
shall impose the sentence in accordance with
this section.
42 Pa.C.S.A. §9714(d).

Pennsylvania state appeallate courts have repeatedly
held statutes requiring materially identical provisions to
those above are unconstitutional as being volatile to due
process protections, e.g., Commonwealth v. Wolfe, 106 A.3d
800 (Pa. Super., 2014); Commonwealth v. Hopkins, 117 A.3d
247,. 250, 260-62 (Pa. 2015); Commonwealth v. Newman, 99
A.3d 86 (Pa. Super. 2014); Commonwealth v. Valentine, 101
A.3d 801 (Pa. Super. 2014); Commonwealth v. Fennell, 105
A.3d 13 (Pa. Super. 2014).
Successful bouts against the unconstitutional
16

provisions in Pennsylvania's mandatory minimum statutes
does not end the inquiry here however.
The Alleyne Court declined to address whether the fact
triggering a mandatory minimum sentence is to be considered
an "element" of the crime if that fact is a "prior
conviction."

Alleyne# 133 S.Ct. 2151, n. 1.

The Alleyne

Court found itself in a position where it could not
properly address this "narrow exception" conceptualized in
Almendarez-Torres v. United States, 532 U.S. 224 (1998).
This is notable because the decision in Almendarez-Torres
has been, sub judice, exhausted in the courts below and is
now ripe to be revisited by this Court. This is of
exceptional importance because, inter alia, AlmendarezTorres' underpinnings have been eroded by subsequent
developments of constitutional law. Consider first# that
four Justices dissented in Almendarez-Torres. Thereafter,
Justice Thomas, who joined in the Almendarez-Torres
majority, has subsequently stated that he believes the case
was wrongly decided, see United States v. McDowell, 745
F.3d 115, 124 (4th Cir. 2014)(citing Shepard v. United
States, 544 U.S. 13, 28, 125 S.Ct. 1254, 161 L.Ed.2d 205
(2005)(Thomas, J •, concurring)).
As a consequence thereof Almendarez-Torres,
innumerable criminal defendants, including the instant
petitioner, have been unconstitutionally sentenced under
that flawed rule, despite the fundamental imperative that
the Court maintain absolute fidelity to the protections of
17

the individual defendant afforded by the notice, trial by
j ury, and beyond-a-reasonable-doubt
requirements. Id. Shepard, 544 U.S. at 28 (Thomas, J •,
concurring)(citing Harris v. United States, 536 U.S. 545,
581-582 (2002)(Thomas, J., dissenting).
Accordingly, petitioner has made every good faith
effort possible to have the courts below rule in accordance
to the above developments, and render §9714
unconstitutional as it violates Due Process protections of
the Fourteenth Amendment to the United States
Constitution. It declined the opportunity, relying wholly
on Almendarez-Torres and the state's equivalent, pet. App. A.
For these reasons, petitioner submits a writ of
certiorari should therefrom follow. Respectfully.

RespectfulLy Submitted By:
//
if

/!
Christopher
Forman

DOC No. NR 1850
Pro se Petitioner
SCI Mahanoy
301 Morea Road
Frackville, PA 17932
This 31st day of May, 2021.

18

*

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully/'submitted bY:
Christopher Forman
DOC No. NR 1850
Pro se Petitioner
SCI Mahanoy
301 Morea Road
Frackville, PA 17932

This 31st day of May, 2021.

19

